No. 19-634
INTHE

~upreme Qtourt of tbe Wntteb ~tateg
REPUBLIC OF SUDAN, MINISTRY OF EXTERNAL
AFFAIRS, AND MINISTRY OF THE INTERIOR OF THE
REPUBLIC OF SUDAN,

Petitioners,

V.

JAMES OWENS, ET AL.,

Respondents.
CERTIFICATE OF SERVICE

I hereby certify that I am a member in good standing of the bar of this Court and
that on this 6th day of December, 2019, I caused three copies of the Brief in Opposition
to be served by third-party commercial carrier on the counsel identified below, and
caused an electronic version to be transmitted to the counsel identified below, pursuant
to Rule 29.5 of the Rules of this Court. All parties required to be served have been
served.
Christopher M. Curran
WHITE & CASE LLP
701 Thirteenth Street, NW
Washington, DC 20005
(202) 626-3643
ccurran@whitecase.com

Counsel for Petitioners

